                          -   7                                            --           -,    ,p-     --   I

                                                                                    -        .,


                                                                                                           I

                                                     OFFICE OF INSPECTOR GENERAL                           1
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM



                                                                                                           I




         This investigation was opened based on an anonymous hotline call requesting us to look into the
         time and attendance practices of an NSF employee.' The caller provided the NSF division the
         employee works in; however, the caller did not give the name of the employee in question.

         Our investigation, which included reviewing the sign-inlsign-out times of everyone in the,
                                                                                                           i
         division in question, and interviewing the Division ~ i r e c t o rdid
                                                                            ~ , not identify an employee
         violating time and attendance procedures.
                                                                                                           I
                                                                                                           I
         In light of the above, no further investigative effort is necessary in this matter.

         Accordingly, this case is closed.




NSF 01G F O I2~(1 1/02)
